No. 19-1004
IN THE
SUPREME COURT OF THE UNITED STATES
ROBERT JAMES JAFFE, MD
Petitioner,
Vs.
Congressman Brad Sherman and Does 1-10
Respondent,
Petition for Rehearing a denial for Petition of Writ of Certiorari
After a Decision by the Ninth Circuit Court of Appeals
CENTRAL DISTRICT OF CALIFORNIA
Case No. CV18-9998-RFK(FFMX)

PROOF OF SERVICE For
PETITION FOR REHEARING and For
MOTION FOR REHEARING
Robert James Jaffe, MD
Internal Medicine
22139 Burbank Blvd., Suite 5
Woodland Hills, CA 91367
(818)713-1378
Petitioner in Pro Se

PROOF OF SERVICE
1, the undersigned, hereby declare as follows:
1 am over eighteen years of age, and not a party to the within cause. I am a resident of the
Los Angeles County , State of California. My address is 22107 Burbank Blvd, Woodland
Hills, CA 91367.
On June 19, 2020,1 served the foregoing Proof of Service of Petition for Rehearing and
Motion for Leave to File a Petition for Rehearing (one copy of each) by
depositing a true copies there thereof, enclosed in a sealed envelope with postage thereon
fully prepaid in the United States mail in the city of Los Angeles, California.
Attorney of record for Respondent:
Solicitor General of the U.S.
Room 5616, Department of Justice
950 Pennsylvania Avenue
N.W. Washington, D.C. 20530

Sean Dye
v

/

